HHS/OIG-Audit--"Review of Foster Care Maintenance Payments Made by the Allegheny County Department of Children and Youth Services, (A-03-91-00553)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Foster Care Maintenance Payments Made by the Allegheny County Department of Children and Youth Services," (A-03-91-00553)
April 17, 1992
Complete
Text of Report is available in PDF format (2.15 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that during Fiscal Year 1989 the State agency was overpaid for claims that were in violation
of one or more program requirements. Specifically, we found: 41 percent of claims sampled involved claims for children
who lacked the required judicial determinations; 13 percent of claims sampled involved claims for children residing in
foster homes that were not documented as being evaluated and approved annually, or were not recommended for licensure;
and 10 percent of claims sampled involved claims for children who were voluntarily placed in foster care. The State plan
did not include a provision for voluntary placements. We are making procedural recommendations aimed at improving the State
agency's administration of the Title IV-E Foster Care program. We are also recommending that the State agency make a financial
adjustment of about $2.3 million for the ineligible claims identified in this report. Operating division officials concurred
with our findings and recommendations.